                         Office of Inspector General
                         Legal Services Corporation



Inspecto r General
Jeffrey E. Schanz

3333 K Street, NW, 3rd Floor
Washingwn, DC 20007-3558
202.295.1660 (p) 202.337.6616 (f)
WVlw.oig.lsc.gov




          August 6, 2012

          Irene C. Morales
          Executive Director
          Inland Counties Legal Services, Inc.
          1040 Iowa Avenue
          Riverside, CA 92507-4219

          Dear Ms. Morales :

          Enclosed is the Office of Inspector General's (OIG) revised final report of our audit on
          Selected Internal Controls at Inland Counties Legal Services (ICLS).

         The original report included a questioned cost amount of $1,447 ,970 on pages 4 and
         10. Based on information provided by management and accepted by the OIG , the
         correct questioned cost amount is $1,384,670 and is the amount that will be referred to
         LSC management. Therefore, the audit report has been reissued to correct the total
         amount questioned . The cover page of the report indicates that it is the revised report
         with an August 2012 date.


         Sincerely,

         ~ C
         ~r~chanz
         Inspector General


         Enclosure




                                                                                     =II:LSC
                                                                                     II     Arne';,•• rvu>u For £qual","",
                LEGAL SERVICES CORPORATION

 ·'
 "
                OFFICE OF INSPECTOR GENERAL

 ,•




          REPORT ON SELECTED INTERNAL CONTROLS



       INLAND COUNTIES LEGAL SERVICES, INC.

                        RN0805230

                     Report No. AU12-06


to •
                          Revised
                        August 2012



                       www.oig.lsc.gov


                                              =ILLSC
                                               II    ~lIal
                                                  Am.,ial. Pan..., Fo.   }..uti<e
                       INLAND COUNTY LEGAL SERVICES, INC.
               AUDIT REPORT ON SELECTED INTERNAL CONTROLS
                           Report No. AU-12-06, August 2012


                                     ERRATA SHEET


Please make the following hand-written changes to your hard copy of the report.


   a. Page 4. First Paragraph - Change $1 ,384 ,670 to $1 ,367,480
   b. Page 5, First Paragraph - Change $1 ,384 ,670 to $1,367,480
   c. Page 5, table 1,
        Amount for 401 (k) contribution for 2009 , change $88 ,846 to $71,656
        Total amount for year 2009 line, change $354 ,063 to $336 ,873
        Total for 401 (k) contributions, change $395 ,953 to $378.763
        Total for all items , change $1,384 ,670 to $1,367,480
           After corrections , Table 1 should read as:


              Table 1 Total Stipends and Other Benefit Payments by Year


                                                           Medical
                                 401 K         LRAP
    Year         Payout                                   Assistance      Total
                              contribution    Payment
                                                           Payment
       2006      $197,780          $93 ,849                               $291,629
       2007      $209,877          $92 ,112                               $301,989
       2009      $265,217          $71,656                                $336,873
       2010      $286,145         $121 ,146     $28,000       $1 ,698     $436,989
     Total       $959,019         $378,763      $28,000       $1,698    $1,367,480


   d. Page 10, First Paragraph - Change $1 ,384,670 to $1,367,480
   e. Page 12, Second Paragraph - Change $225 ,944 to $252 ,944


Please insert this Errata Sheet inside the front cover of the hard copy of the
report.
                                                TABLE OF CONTENTS

INTRODUCTION .. ..... ... .. ... ......................... ...... .. ... ........ ......... ... .. ... .......... ...... ... ....... 1

BACKGROUND .. .. .. ....... ... ... .......... .................................. .... ....... ........ ... ... ... ............. 1

OBJECTiVE ... ... .. ............... ... .. .... .................. ............. ... ... ........... ..... .. .......... .... ......... 2

SCOPE AND METHODOLOGy .... ................ .. .......................... ............ .... ..... .......... 2

OVERALL EVALUATION .... ......... ................. .. .. ...... .. ..... .. ........................................ 3

AUDIT FINDINGS ..... ... .. .... .. ........ .. ................... ................ .... ... .... .... ... .............. ..... ... 5
 Year End Stipends ................................................................................................. 5
 Recommendation 1 ..................... ..... .. ...... .. ... ... .... ........................ ...... .. .... ........... 10
 Grantee Comments ....................... ..... ................................................................. 10
 OIG Evaluation of Grantee Comments ..... ..... ... .. .... .... .. ... ....... ..... ... ......... ............ 11

   Policies and Procedures ............................. ... .... ........ .. ... ......... .... .... .......... .. ..... ...         12
   Recommendation 2 ... ................. ...... ...... ......... .. ... ... ... .... ........ ... .... ............. ... ... ...     13
   Grantee Comments ..... .......... ..... .... .. .. .......... .... .. .. ...... ... .... .. .... .......... ...... ......... ...   13
   OIG Evaluation of Grantee Comments ... ..... ...... ...... ........ ... ...... .. ...... .. ..... .. ..........                    14

   Loan Repayment Assistance Program .. ........................ ......... ....... .... .. .... ......... ...                         14
   Recommendation 3 ... ...... .. .. .. .. ................................ ... .. ... ....... ... ........ ..... ........ .....      14
   Recommendation 4 ................................... ... ...... .............. ... ...... .. ........... ...... ...... .           14
   Grantee Comments .......... ..................... ... .. ........ ................. ...... .. ...... .... ...... .... ... .        14
   OIG Evaluation of Grantee Comments ........................ ............... ........... .. .. ..........                           14

APPENDIX I - GRANTEE MANAGEMENT COMMENTS
                                  INTRODUCTION
The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Inland Counties Legal Services, Inc.
(ICLS or grantee) related to specific grantee operations and oversight. The on-site
fieldwork was conducted from July 11 through 15, 2011 and from August 1 through 5,
2011 . Documents reviewed pertained to the period January 1, 2010 through July 15,
2011, and included specific documents dating back to 2006. Our work was conducted
at the grantee's administrative office in Riverside, California and at LSC headquarters in
Washington, DC.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee " .. . is required
to establish and maintain adequate accounting records and internal control procedures."
The Accounting Guide defines internal control as follows:

      [Tlhe process put in place, managed and maintained by the
      recipient's board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition ;
      2. reliability of financial information and reporting ; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee "must rely upon
its own system of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and meeting the complete financial
information needs of its management.


                                   BACKGROUND

Inland Counties Legal Services, Inc. provides free legal aid services to low income
individuals , families , and senior citizens through community education and advocacy.
Those services include a full range of legal assistance. ICLS conducts extensive intake
at outreach sites throughout the service area at senior centers, homeless and domestic
violence shelters, at a deaf and hearing impaired center, at Family Justice Centers for
domestic violence victims and in many different courts under formal agreements to
provide legal information and document preparation (limited to otherwise eligible clients)
to increase access for monolingual Spanish speaking, illiterate and disabled persons.




                                            1
ICLS services San Bernardino and Riverside Counties in California. The legal services
delivery area has a geographical area of 27,000 square miles which is a mixed urban,
rural, desert and mountain area.


                                     OBJECTIVE

The overall audit objective was to assess the adequacy of selected internal controls in
place at ICLS as the controls related to operations and oversight, including program
expenditures, fiscal accountability, and compliance with selected LSC regulations. The
audit evaluated selected financial and administrative areas and tested the related
controls to ensure that costs were adequately supported and allowed under the LSC Act
and LSC regulations. Financial and administrative areas included reviewing stipends
and other benefits paid to staff employees during fiscal year (FY) 2006 through FY
2010. In addition, the OIG examined regulatory policies and ICLS processes to assess
whether controls were designed in a manner expected to ensure compliance with the
LSC Act and the reviewed LSC regulations. However, reaching conclusions regarding
compliance with any specific regulation was not an objective of the audit.


                         SCOPE AND METHODOLOGY
To accomplish the objective, controls over disbursements, selected LSC regulations,
employee benefits, cost allocation, contracting , credit cards, internal management
reporting and budgeting, property, derivative income, client trusts, and sub grants were
reviewed and tested. To obtain an understanding of the internal controls over these
areas, policies and procedures were reviewed, including manuals, guidelines,
memoranda, and directives setting forth current practices. ICLS officials were
interviewed to obtain an understanding of the internal control framework and to
determine their knowledge and understanding of the processes in place. We assessed
the reliability of computer generated data provided by the grantee by reviewing source
documentation for the entries selected for review. We determined that the data were
sufficiently reliable for the purposes of this report.

To test the controls and to test the appropriateness of expenditures and the existence of
adequate supporting documentation, disbursements from a judgmentally selected
sample of employee reimbursement files and vendor files were reviewed. The sample
represented 2.26 percent of the $4 .064 million disbursed for expenses other than
payroll during the period January 1, 2010 to May 31, 2011 and consisted of 60
transactions totaling $91,684. To assess the appropriateness of expenditures, we
reviewed invoices, vendor lists, and general ledger details. The appropriateness of
those expenditures was evaluated on the basis of the grant agreements, applicable
laws and regulations, and LSC policy guidance.               In addition, we reviewed
disbursements for stipends and other benefits paid to staff members during FY 2006
through FY 2010 to determine whether payments were reasonable and necessary
under the circumstances .

                                            2
To evaluate and test internal controls over the cost allocation process, contracting,
credit card use, internal management reporting and budgeting, property inventory,
derivative income, and client trust fund accounting, we interviewed appropriate program
personnel, examined related policies and procedures, and selected specific transactions
to review for adequacy. Controls over employee benefits and reimbursements were
reviewed by examining the personnel policies and practices and testing a judgmentally
selected sample of employee reimbursements as part of the disbursement testing. In
addition, the grantee's system and processes were compared to those detailed in the
Fundamental Criteria contained in the LSC Accounting Guide.

To review internal controls over compliance with specific LSC regulations (45 CFR Parts
1610, 1612 and 1617), we examined written compliance policies and procedures,
including applicable LSC mandated record keeping requirements, reviewed applicable
documentation and reports, and interviewed staff to determine if the controls were
designed in a manner to ensure compliance with the provisions of LSC regulations
reviewed.

This review was limited in scope and not sufficient for expressing an opinion on the
entire system of grantee internal controls over financial operations or compliance with
LSC regulations.

On-site fieldwork was conducted from July 11, 2011 to July 15, 2011 and from August 1,
2011 to August 5, 2011. Documents reviewed pertained to the period January 1, 2010
to July 15, 2011 and included specific documents dating back to 2006. Our work was
conducted at the grantee's central administrative office located in Riverside, California
and at LSC headquarters in Washington, DC.

The audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.


                               OVERALL EVALUATION

Internal controls reviewed and tested at ICLS were adequate as the controls related to
specific grantee operations and oversight, including program expenditures, fiscal
accountability, and compliance with LSC regulations. However, some controls and
practices need to be formalized and documented. Controls over regulations were
designed in a manner expected to ensure compliance with the LSC Act and selected
LSC regulations.




                                            3
The expenditure of LSC funds used to provide stipends and other benefits during the
period FYs 2006, 2007, 2009, and 2010, in our opinion, was not reasonable and
necessary under the circumstances. Funds were available for these payouts because
the program was experiencing significant staff shortages. The OIG is questioning the
expenditure of $1,384,670' of LSC funds for stipends and other benefits, and will
forward the questioned cost to LSC management for action.

Except for the payment of stipends and other benefits, grantee disbursements tested
were adequately supported, allowable, and appear to be properly allocated to LSC
funds. The grantee's current practices involving internal management reporting and
budgeting were generally in accordance with the Fundamental Criteria contained in the
LSC Accounting Guide. Tests of internal controls related to disbursements, cost
allocation, derivative income, employee benefits, contracting, credit card use, property
inventory, and client trust accounting indicated that controls were adequate. Although
practices were in place, related written policies and procedures were outdated and did
not reflect the current practices in place.

The ICLS' self-initiated student loan repayment assistance program (LRAP) did not
have adequate controls in place to ensure that employees receiving this benefit used
the funds to repay student loans as intended . The LRAP also did not have policies in
place defining the type of loans eligible for repayment.

Internal controls over compliance with LSC regulations (45 CFR Parts 1610, 1612 and
1617), were adequately designed . Written compliance policies and procedures,
including those based on applicable record keeping requirements , were in accordance
with the respective LSC regulation. Controls over regulations were designed in a
manner expected to ensure compliance with the LSC Act and selected LSC regulations.




I The originally issued report did not include the revised amount provided by grantee management and agreed to by

the OIG .

                                                        4
                                   AUDIT FINDINGS


Y~ar   End Stipends

LSC funds that were generally in excess of a 10 percent fund balance carryover for FYs
2006 , 2007 , 2009, and 2010, were distributed to employees in payouts that the grantee
termed stipends and other benefits. The total amount distributed for the four years was
$1,384,670 (see Table 1). The funds were available because the program was
experiencing staff shortages. While ICLS was experiencing a staff shortage, we do not
believe that the actions taken to address the shortage were reasonable or that the
stipends and other benefits paid , as structured, were necessary.

                Table 1 Total Stipends and Other Benefit Payments by Year




                                                            Medical
                                 401 K        LRAP
       Year       Payout                                   Assistance       Total
                              contribution   Payment
                                                            Payment


         2006     $197 ,780       $93 ,849                                 $291,629
         2007     $209,877        $92 ,112                                 $301,989
         2009     $265,217        $88,846                                   $354,063
         2010     $286 ,145      $121,146        $28,000       $1,698       $436,989
       Total      $959,019       $395,953        $28,000       $1 ,698    $1,384,670



The accumulation of LSC funds throughout each of the years was substantia\.
According to the Executive Director, the following factors contributed to LSC funds not
being expended as planned :

   a. Difficulties with hiring and retaining employees, particularly staff-level attorneys
      and paralegals.

   b. Extended and protected employee leaves of absence causing inefficiencies for
      allocating time to the LSC grant.

   c. Promotions and interoffice transfers causing vacancies.

   d. Relocation of the main office scheduled for FY 2007 was deferred to FY 2008
      due to complications with planning .


                                             5
    e. Potential 60-70 percent cuts of IOLTA funding called for conservative resource
       planning, as a result, the grantee budgeted for reserves using LSC funding.

Although the Executive Director provided explanatory materials describing the possible
causes for the accumulation of the LSC funds from year to year, these materials did not
specifically address the year-end payouts. The Executive Director further explained that
payouts were made because staff was generally underpaid and this was an incentive to
retain their services. To support her position, she provided salary survey information.
However, no information was provided to show how the salary survey was used to
develop the stipend and other benefits program or any other program to address hiring
issues.

The Executive Director explained that for the years involved, the grantee wanted to
reduce the LSC fund balance to a level not exceeding the 10 percent LSC carryover
limit. Our review of the periods involved revealed that during the last quarter of each of
the respective fiscal years, the grantee's Controller determined, based on the spending
levels at the time, that the LSC fund balance would exceed the 10 percent carryover
threshold for the four years. By using LSC funds each of the four years for stipends and
other benefits to reduce the fund balance carryover, the grantee did not need to return
the excess carryover or obtain LSC approval for a fund balance carryover greater than
10 percent in accordance with 45 CFR Part 16282 for any of the four years in question.

The individual stipends were calculated using a specified percentage, based on the
employee's years of service, which was then multiplied by the employee's annual gross
salary. The specified percentage increased as the employee's years of service
increased so the basic structure results in greater incentives to those with the greatest
seniority. However, it provides the largest payouts to those in senior-level positions
because they have the highest salaries 3 .



2 § 1628.3 Policy.
(a) Recipients are permitted to retain from one fiscal year to the next LSC fund balances up to 10% of their LSC
support.
(b) Recipients may request a waiver to retain a fund balance up to a maximum of 25% of their LSC support for
special circumstances.
(c) Recipients may request a waiver to retain a fund balance in excess of25% of a recipient's LSC support only for
the following extraordinary and compelling circumstances when the recipient receives an insurance reimbursement,
the proceeds from the sale of real property, or a payment from a lawsuit in which the recipient was a party.
(d) A waiver pursuant to paragraph (b) or (c) of this section may be granted at the discretion of the Corporation
pursuant to the criteria set out in§ 1628.4(d).
(e) In the absence ofa waiver, a fund balance in excess of 10% ofLSC support shall be repaid to the Corporation. If
a waiver of the 10% ceiling is granted, any fund balance in excess of the amount permitted to be retained shall be
repaid to the Corporation.
3 For instance, in 2010, a Receptionist with 26 years of service only received a $5,025 (stipend plus 401(k)
contribution) while the Controller with 8.5 years of service received a $I2,416( stipend plus 401(k) contribution),
almost two and half times greater than the stipend and 401(k) contribution received by the Receptionist who has
three times the seniority.



                                                        6
Additional 401(k) retirement fund contributions were calculated using a predetermined
fixed percentage that is applied to employees' annual gross income after including the
stipends. Additional student loan assistance and additional medical expense assistance
(provided in FY 2010) were issued on an exception bases to those employees who
qualified.

Table 2 is a summary of the benefits received by year. The table includes the
percentage that was applied to base salary in accordance with years of service, the
additional 401 (k) contribution that employees received, and the additional benefits that
were awarded to eligible employees in FY 2010.

According to the Board and Finance Committee minutes, for each year the stipends and
other benefits were distributed, the ICLS' Board of Directors reviewed and approved
management's proposal prior to any disbursement.




                                            7
       Table 2 - Distribution Percentages of Stipend and Other Benefits by Year

  Emelollee
  Years of          FY 2006           FY 2007          FY 2009            FY 2010
   Service

 More than 10
                    10.50%            10.50%            10.75%            11.00%
    years

 More than 5
years and less       8.50%             8.50%            8.75%              9.00%
than 10 years

 More than 3
years and less       6.50%             6.50%            6.75%              7.00%
 than 5 years

 More than 1
yea r and less       4.50%             4.50%            4.75%              5.00%
 than 3 years

 Less than 1
                     1.50%             1.50%            2.75%              3.00%
    year

    401(k)           4.00%             4.00%            2.50%              4.00%

  Add itional                                                            $2,000/per
    LRAP                                                              eligible attorney

                                                                          50% of
 Add itional
                                                                       premium/per
  'Medical
                                                                          eligible
 Assistance
                                                                        employee


In our opinion , the stipends were not reasonable and necessary based on the
information provided by the grantee. We base our opinion on the following.

  a. The stipends and benefits were only charged to LSC funds and not allocated
     among all grants.

  b. The stipends were in addition to the annual pay raise that most employees
     received each year.


                                         8
    c. Whne the stated reason for the funds being available was the inability to hire
       staff, we were not provided with any short term or long term plans to address the
       issue. Hiring was a systemic issue that persisted for at least five years, from FY
       2006 through FY 2010 4 .

    d. Information was not provided to demonstrate what actions were taken by the
       grantee to directly alleviate the hiring difficulties. Actions that could have been
       taken include hiring contract attorneys , increasing PAl, aggressive recruiting,
       temporary employees, and making structural changes to its salary scale. Prior to
       adopting their stipend approach, some of these options were briefly mentioned in
       a 2006 interoffice memo. However, no detailed plans or analyses in regard to
       spending alternatives were provided .

    e. The dollar amount for stipends and other benefits was designed to ensure that
       the grantee did not have a fund balance greater than 10 percent, thus requiring
       the grantee to return the excess funds or request a waiver from LSC and an LSC
       approved spend down planS

    f.   The stipends and other benefits were not specifically designed to address the
         issues that the grantee stated caused the hiring difficulties such as attracting and
         retaining staff, particularly attorneys and paralegals . Rather, the stipends were
         structured to provide the largest raises to employees who were at the program
         the longest and higher paid. For example, the FY 2010 stipend and 401 (k)
         contribution distributed to a paralegal with more than one year and less than
         three years of service resulted in a total increase of $3,546 . The Executive
         Director with over ten years of service received a total increase of $18,233, over
         five times the amount received by the paralegal.

    g. According to a FY 2006 interoffice memorandum, the grantee's management
       presented several spending plan options to their Board and Finance Committee,
       which were designed to address LSC funds in excess of the 10 percent carryover
       threshold primarily caused by "salary savings." Options included increasing the
       PAl sub-grant amount, increasing staff attorney salaries, salary adjustments to
       compensate for increases in the cost of living, and bi-lingual pay differentials.
       The last options illustrated were "one-time" employee stipends and retirement
       contributions. Similar memoranda, prepared during subsequent years with
       excess LSC fund balances (FYs 2007, 2009, and 2010) , did not consider any
       other options other than year-end employee stipends and other contributions.
       Memos prepared subsequent to the FY 2006 memo contained detailed analysis
       of how different stipend amounts would affect the LSC fund balance.

4 The grantee also had funds available as a result of staffIng shortages in FY 2008. However, in FY 2008, ICLS
relocated its main offIces and used over $200,000 of the funds that were available because of the staff shortages.
, In FY 2008, no stipends or other benefits were distributed because ICLS relocated its main offices. However, as of
December 31, 2008, ICLS still had an LSC fund balance of$495,813, which was $85,124 over the maximum
allowable 10 percent. ICLS did seek a waiver from LSC and included a spend-down plan that consisted of
upgrading and expanding its telecommunications system. The waiver was approved on April 29, 2009, and the
money was spent as planned.

                                                         9
    As a result, the OIG is questioning $1,384,670 6 charged to LSC funds for the payment
    of the stipends and other benefits as unallowable costs within the meaning of 45 CFR
    § 1630.2. The OIG will refer these costs to LSC management for review and action.

Recommendation 1. The Executive Director should develop and implement short-term
and long-term plans to address the staffing shortages. The plans should consider
seeking advice and assistance from LSC to determine the best actions to take to
address staff shortages. The plans should include alternative methods that directly
increase the availability of legal services to those needing assistance within the
grantee's legal service delivery area. Alternatives may include but are not limited to
hiring contract attorneys, increasing PAl, aggressive recruiting, hiring temporary
employees, and making structural changes to the salary scale.

 Grantee Comments: The grantee strongly disagreed with the finding regarding year-
 end stipends. Grantee management stated the OIG's audit "found ICLS to have
 adequate internal controls that are carefully followed." They also stated that "the
stipend and benefits disbursements did not violate any rule or regulation." ICLS
management explained that the stipends and other benefits were provided to help
attract and retain an underpaid staff. They furthermore explained that the stipends and
other benefits were not given to avoid seeking a waiver under LSC's Fund Balance
regulation, but were part of fiscal planning which had been in place for many years. The
comments indicated that ICLS has a history of Board of Directors' approval of stipends
and other benefits and they were presented with all the relevant financial information
and were fully informed about potential amounts available at year end for the proposed
stipends. Management stated that the grantee experiences difficulties in attracting and
retaining attorneys due to low salaries. The grantee experienced significant turnover
from 2006 thru 2010, losing 21 attorneys during that time period. Management
maintains that starting salaries at ICLS are typically lower than at other California LSC
funded programs, and as such the stipends are needed to attract and retain attorneys.
Grantee management stated that it considered upgrading the salary schedule, but
through internal discussion, decided that it would not be prudent.

The grantee explains that there was an excess in the year-end LSC fund balance
partially because of anticipated cuts in IOLTA funding. From 2008 to 2011 ICLS lost
approximately one-third of its IOLTA funds. This warranted fiscally conservative budget
planning including maintaining a LSC fund-balance close to the ten percent level so
funds could be used to cover IOLTA and other grant funding shortages .

Management stated that other factors contributing to the build-up in LSC funds included
(a) a reversion of pension revenue to the 401 (k) Retirement Forfeiture Account when
employees departed prior to full vesting (b) increases in 2010 LSC funds when the
county paid reimbursements claims to the grantee (c) anticipated costs not rising to

6 The originally issued report did not include the revised amount provided by grantee management and agreed to by
the OIG.


                                                       10
The grantee reported that Table 1 "Total Stipends and Other Benefit Payments by
Year", of the report, is incorrect for FY 2009 . They stated that the amount for stipends
should have totaled $203,077.95 and the 401(k) contribution amount was $49,866.45
for a total compensation of $252,934.

OIG Evaluation of Grantee Comments: The OIG questioned the cost of the stipends
based on the reasonableness and necessity of the payments, not on the basis of a lack
of adequate documentation or a violation of law. Management's comments cited many
compensation figures including averages for legal aid attorneys in California, averages
for LSC funded programs in California, and years of experience.             In reviewing
management's response, there may be some merit to the discussion regarding the
disparity in pay for attorneys in California. Based on management's comments that the
stipend was intended for staff retention , the OIG questions the structure of the stipend,
and not necessarily the stipend itself.

Grantee management comments stated that the stipends were to attract and retain
staff, not to avoid seeking a waiver under LSC's Fund Balance regulation. However, the
documentation provided by grantee management clearly indicated that the amount of
money used for the stipend program was tied directly to reducing the LSC fund balance
carryover to under 10 percent. In addition , if ICLS was truly intending to use additional
payments as an incentive for employees to stay with the organization, then percentage
amounts would have been skewed more toward the lower paid staff. Generally, lower
paid , less experienced staff seeking to gain experience will more likely leave an
organization once they gain a few years of experience than higher paid, more senior
level staff. Unfortunately, the distribution of the stipend was highly skewed toward
longevity, which arguably was given to individuals already compensated at a higher
rate. The ICLS stipend program was not structured on years of experience or the
difficulty to fill certain positions but was structured on years of service with ICLS.

The OIG believes that if the stipend was designed as a retention tool, then the lower
paid staff should have received a higher percentage of their pay as an incentive to stay
and the higher paid staff a lower percentage of their pay. This does not preclude a
higher paid individual from receiving a higher overall amount, just that the percentage
would be less. Under the current scenario, the stipend payout of equal percentages
based on longevity resembled more of a bonus payout than a retention tool.

If the stipend was also used as a recruitment tool , it does not appear to have been
completely successful, considering that substantial funds remained available at year
end year after year. No evidence was provided by the grantee to indicate that the hiring
difficulties encountered by the grantee had been mitigated by the use of this stipend
program. The stipend program was in place during a significant economic downturn in
the country as well as the state. Law firms were downsizing and many recent law
school graduates were having difficulty finding employment. A well designed hiring plan
would have leveraged these situations while simultaneously taking into account staff
attrition .



                                            11
As noted in management's response to Recommendation 1, ICLS agreed to develop a
plan to address attorney recruitment and retention . Should management determine that
retention payouts are necessary in the future, consideration needs to be given to a
comprehensive payout structure that does not skew payouts toward the highly
compensated staff of the grantee.

Grantee management stated that the amount for stipends for 2009 should have totaled
$203,077.95 and the 401 (k) contribution amount was $49,866.45 for a total
compensation of $225,944. The totals used in the draft report were provided by grantee
management. Since submitting its initial comments, ICLS management submitted
supplemental information for the 2009 stipends. The supplemental information depicted
the amount of stipends to be $265,216.96 and the 401(k) contribution amount to be
$71,656.47, for a total amount of $336,873.43. We have reviewed the supplemental
amounts submitted by ICLS management and have included these amounts in the final
report.


Policies and Procedures

While ICLS' internal control practices were generally adequate, the grantee's
accounting manual was outdated and did not reflect many of the practices currently in
place. The manual was adopted in 1992 and an updated official version has not been
approved by the Board since then . The grantee is in the process of updating the
manual. The accounting manual was missing written policies and procedures in the
following areas.

      •   Disbursements/Purchasing:
             • LSC approval of purchases equal to or greater than $10,000 solely
                allocated to LSC;
             • Use of pre-numbered purchasing documents;
             • Bulk-purchases;
             • Safeguarding check stock;
             • Check signing authorities;

      •   Sub-Grant Monitoring

      •   Internal Reporting and Budgeting

      •   Compensatory Time Processing and Usage

      •   Contracting
            • Approval process for securing contracts with vendors
            • Formal cost threshold for obtaining bids;


                                          12
           •   Cost Allocation

           •   Derivative Income (Interest, attorneys' fees, etc.)

The grantee had developed preliminary policies and procedures in the areas listed
below. At the time of our audit period, these policies and procedures had not been
approved by the grantee's Board of Directors:

           •   Cash and Investments
           •   Credit Card Usage
           •   Cash Receipts
           •   Bank Reconciliations
           •   Outstanding Checks
           •   Description of Accounting Records
           •   Retention Times for Nonprofit Records
           •   Chart of Accounts

To maintain an adequate internal control structure, each grantee must develop a written
accounting manual that describes the specific procedures to be followed by the grantee
in complying with the Fundamental Criteria contained in the LSC Accounting Guide,
which requires that financial controls be established to safeguard program resources.
The Government Accountability Office 7 in its guidance on internal control states all
transactions and other significant events need to be clearly documented , and that the
documentation requirements should appear in management directives, administrative
policies, or operating manuals.

Without adequate written policies and procedures in place, transactions may be initiated
and recorded that violate management intentions, or possibly laws or grant restrictions.
Written policies and procedures also serve as a method to document the design of
controls and to communicate the controls to the staff.

Recommendation 2. The Executive Director should update ICLS' accounting manual by
preparing written policies and procedures that document current practices in use and
include all processes required by LSC's Accounting Guide.

Grantee Comments: The grantee indicated that a considerable amount of work was
performed on the accounting manual in 2011 by the grantee's former Controller.
However, a substantial amount work remains to be done to update the accounting
manual. Grantee management has hired a new Controller who has been assigned to
update the Accounting Manual.




7   GAO-Ol-l31G -Internal Control Management and Evaluation Tool ED (2/01), Page 41.

                                                       13
OIG Evaluation of Grantee Comments: Grantee actions taken are responsive to
Recommendation 2. The recommendation will remain open until all management
actions are completed and the OIG is notified in writing of such.


Loan Repayment Assistance Program

The grantee does not have adequate practices or written policies and procedures in
place for its LRAP to ensure that the employees use the funds provided to payoff
outstanding student loan balances. Eligible employees are allowed to participate in the
grantee's LRAP which pays the participant $1 ,000 per quarter ($4,000 per year) for their
student loan obligations . At the time of the audit fieldwork, there were 14 employees in
the program. Employees must reapply every year and submit proof of an outstanding
student loan; however, grantee management does not determine if the funds provided
by its LRAP are being used to pay down their outstanding loan.

Other areas for strengthening the LRAP include specifying the type of loans that are
eligible for LRAP payments; limiting how long a person can be in the program; having a
maximum amount that an employee can receive in LRAP funds; and having a service
commitment and payback policy if the service commitment is not met.

By confirming whether employees are actually paying down their outstanding student
loans, the grantee can ensure that the LRAP funds are being used for their intended
purposes . Strengthening the program by specifying the types of loans that are eligible,
limiting time in the program and the maximum amount an employee can receive, and
having a service commitment helps ensure funds are available in the future for new
employees and enables management to better plan for the cost of the program.

Recommendations: The Executive Director should:

Recommendation 3. Instruct the Controller to perform analysis of outstanding employee
loan balances from year to year to determine whether employees are actually paying off
their loan balances . The program could also opt to pay the lenders directly to ensure
employee loans are being paid off.

Recommendation 4. Strengthen the program by specifying the types of loans that are
eligible, establishing time limits for being in the program, and the maximum amount an
employee can receive, and requiring a service commitment as a condition of receiving
and keeping LRAP funds .

Grantee Comments: The grantee stated that the finding is well taken and they will
restructure the LRAP to ensure that the funds are used for their intended purpose.

OIG Evaluation of Grantee Comments: Grantee actions taken are responsive to
Recommendation 3 and 4. The recommendation will remain open until all management
actions are completed and the OIG is notified in writing of such.

                                           14
                                                                                                                 APPENDIX I

                                  Inland Counties Legal Services
                                  Executive Office
                                  1040 Iowa Avenue, Suite 101 / Riverside, CA 92507-2106
                                  (951) 368-2530/ (951) 368-2542 Fax

                                                                                                                      Irene C Morales
Housing Law Services Center ·                                                                                         Attorney at Law
  Housing Holline                                                                                                     Executive Director
                                                                                                                      (951) 368·2540
Eligibility screening and                                                                                             imo,.ales@icls.org
legal help over the phone.
(951) 368-2570
(888) 455-4257 • Toll Free
                                            June 1,2012                                 EM 704836402 US
(951) 368·2550 • Fax

Branch Offices

1040 Iowa Ave., # 109
Riverside, CA 92507·2106
(951) 368-2555
(951) 320-7500 · Seniors                    Mr. Ronald D. Merryman
(888) 245-4257 . Toll Free                  Assistant Inspector General for Audit
(951) 684-1901 - ITY
(951) 368·2550 · Fox
                                            Office of Inspector General
                                            Legal Services Corporation
82632-C Highway 111
Indio, CA 92201-5632
                                            3333 K Street, 3rd Floor
(760) 342-1591                              Washington, D.C. 20007-3558
(760) 347-5303 - Seniors
(800) 226·4257 . Toll Free
(760) 775·3114· ITY
(760) 342·9400 . Fax                        Re:     Recipient No. 805230
715 N. Arrowhead Ave .. # 113
                                                    Response to OIG Audit Findings
San Bemardino, CA 92401-1150
(909) 884-8615                              Dear Mr. Merryman:
(909) 888-3889 - Seniors
(800) 677-4257 . Toll Free
(909) 381-0274· TTY                                 In response to your March 20, 2012 letter regarding the draft report
(909) 884·8281 - Fox
                                            for the Intemal Controls Visit which took place in July and August in
1060 1 Civic Center Or., # 260              20 11, ICLS submits the following comments for your consideration:
Rancho Cl<amooga, CA 91730-7604
(909) 980-0982
(909) 476-9252 - Seniors
(800) 977-4257 - Toll Free                  L        STIPENDS
(909) 476·7875· TTY
(909) 980-4871 . Fox
                                                   ICLS strongly disagrees with the questioned cost finding on the
14196 Amargosa Rd., # K
Victorville. CA 92392-2429                  Year-End Stipends. The audit found I
(760) 241·7073                              CLS to have adequate internal controls that are carefully followed. The
(760) 241 -7072 - Seniors
(888) 805-6455 . Toll Free                  auditors found disbursement of funds to bc adequately supported,
(760) 843·9814· TTY
(760) 241·2111 - Fax                        allowable ahd properly allocated to LSC funds with the exception of the
                                            payment of the stipend and other benefits.
ICLS is a non-profit
30lc(3) corporation.                                The stipends are a good example offollowing ICLS internal
Donations are welcome.                       controls. The Board of Directors and its appropriate committees reviewed
IRS Tax ID 95-6124556
                                             and discussed the monthly fmancial statements with the controller, a CPA,
                                             and asked questions conceming program budgets and expenditures. There
                                                                       Page 1 of8


                                             Inland Counties Legal Services pursues justice and equality for low income people
  "" LSC                              through counsel, advice, advocacy and community education, treating all with dignity and respect.
Inland Counties Legal Services
Recipient No. 805230
Response to Draft Report
2011 Internal Controls Visit

was full disclosure to the program board concerning the proposed stipends and options were
presented. Information presented 'included management and staff positions, years of service and
the proposed stipend and benefit payment amounts as well as projected expenditures and total
cost of the compensation and benefits.

         The stipend and benefits disbursements did not violate any rule or regulation. It appears
that this is an issue because of the timing of the stipends when in fact ICLS was engaging in
ordinary and necessary business practices. The actions taken by ICLS were not done to avoid
seeking a waiver under LSC's Fund Balance regulation but were part of fiscal planning which
had been in place for many years. In retrospect, perhaps ICLS should have expected severe
attorney attrition and attempted to factor that into the LSC budget but there was no way of
knowing what the attorney attrition factor would be and when attrition would occur. Certainly,
ICLS did not have a basis for knowing that eight attorneys would leave in 2006 and five the next
year, with 38% going to work for the local Public Defenders' Office which had the resources to
pay the attorneys at least $20,000 more than ICLS.

        ICLS engaged in sound fiscal management practices, monitoring the LSC fund balance
closely at mid-year while still continuing to engage in an aggressive attorney recruitment
process. The program board received fmancial statements as well as summary written reports in
committee and also at regular board meetings. The stipends and other benefits were not given at
year end to avoid a fund balance waiver request. Rather, the stipends were provided to help
retain an underpaid staff. There was a process of close fund balance monitoring which began in
June or July while recruitment was ongoing. The Board Committee was provided detailed
information on the stipend amounts for every program position including that of the executive
director.

        Board Committees as well as the full Board meeting were presented with financial
statements as well as information on the projected LSC Fund Balance to keep the Board
informed of the potential amount that possibly would be available at year end. Meanwhile, ICLS
continued to engage in aggressive recruitment and hired personnel into December. ICLS has a
history of Board approved stipends and other benefits as a part of a sound fiscal management
practice to respond to events that can't be predicted through the budgeting and forecasting
process. This whole process did not happen in December. Monitoring normally began in July,
adjusting what needed to be done, not only with the LSC grant but with all grants. Board
Committee consideration began as early as October, however, it was planned to issue the stipend
in mid-December as a retention tool. Employees would ask program management whether there
would be a stipend at year end and, over time, began to anticipate the payment. The Stipend and
Benefits were usually announced at the Program' s annual December meeting to show
appreciation and recognition to employees as well as LSC PAl Subgrantee program staff.



                                            Page 2 of8
Inland Counties Legal Services
Recipient No. 805230
Response to Draft Report
2011 Internal Controls Visit

Attorney as well as client Board members attended the annual meetings.

         Contrary to the assertions in the audit report, the stipends were designed for staff
retention. It is important to have experienced attorneys on staff to attract, train and retain new
attorneys. Under the guidance of the Deputy Director, all program lawyers participate in
Attorney Roundtables in day long in house training and information sharing sessions. It is
invaluable to a new attorney to be able to consult with experienced colleagues. This type of
resource is priceless. As an example, earlier this week a 30 year attorney from a rural office
drove 75 miles to co-counsel with an attorney who was representing a client in her first
arbitration.      The presence of attorneys in the program with substantial experience in the
substantive areas of the law firm's practice who are willing to share their knowledge is a
recruitment tool and adds to the overall litigation capacity of the program and directly benefits
clients.
         In terms of legal experience, the program today has an attorney workforce with a range of
experience in all areas of its priorities and in all offices. As reported in the LSC Grant Activity
Report for 2011, there are 3 attorneys with 4 to 5 years, 6 with 5 to 10 years, 3 with 10 to 15
years, one with 17 and one with 30 years of legal experience. The legal experience of the
managing attorneys includes 2 managers with 7 years; 1 with 10 years; 1 with 17 years, I with
20 years and 1 with 35 years oflegal practice.

        The decisions made by the Board regarding Stipend and Benefits, establishing a Deputy
Director as well as a Resource Development Director position has improved attorney retention
and has begun expanding program resources. As a result of the program's conservative
financial management practices, ICLS was not forced to layoffprograrn staff until February,
2012.
        The role of the governing body is to adopt policies to promote with the mission of the
program. The mission of ICLS is to pursue justice and equality for low income people through
counsel, advice, and community education, treating all with dignity and respect. The Board of
Directors was cognizant of the difficulties with attracting and retaining attorneys. If funds were
available, the Board increased the salary payments to employees, and in some years the employer
contribution to dependent medical and also increased the employer contribution to the 40 I (I) (K)
American Bar Association pension plan. The Board was presented with salary survey
information, proposed stipend payments as well as proposed additional contributions to the
pension plan by years of service as well as the total gross earnings before and after the stipend.

        Attorney recruitment and retention is a statewide problem. The magnitude of the
problem is evidenced in the two reports furnished your office; specifically, the Improving Civil
Justice in Rural California issued by the California Commission on Access to Justice (2010) as
well as a report entitled Shaping the Future of Justice - Effective Recruitment and Retention of


                                            Page 3 of8
Inland Counties Legal Services
Recipient No. 805230
Response to Draft Report
2011 Internal Controls Visit

Civil Legal Aid Attorneys in California prepared by Carmody & Associates for the Legal Aid
Association of California (LAAC) and issued in April 2010. Participants in the study included
37 organizations representing a mix of civil legal aid programs from all areas of the state that
collectively employ 70% of California's legal aid attorneys. According to the LAAC study, the
starting salary ofICLS lawyers is below the statewide average and the director' s salary is
$30,000 under the statewide average.

        ICLS had problems with attorney hiring and turnover and, also with filling managing
attorney positions. We lost eight lawyers in 2006, five in 2007, six in 2008, two in 2009 and
two in 2010, for a total of 21 attorneys.l Additionally, during this period there was turnover in 5
paralegal positions and significant turnover in key management positions (6 managing attorneys,
2 resource development directors and one technology manager). ICLS aggressively tried to fill
vacant positions, especially attorney positions --- 21 lawyers left ICLS from 2006 to 2010,
during this same period, ICLS recruited and hired 19 attorneys and 5 paralegals. ICLS also
added a third secretary to the three larger offices.

       In an effort to try to stem the loss of attorneys, the Board approved a new Deputy
Director position in mid-2008 for the training and development of staff lawyers and also
continued stipends if funds' were available after addressing all other programmatic and LSC PAl
subgrantee needs. The Board conditioned staff eligibility for stipend and benefits payments
dependent upon being employed in mid-December. The Board also approved a new resource
development director position.

        There are significant differences in starting attorney salaries compared to most other
California LSC funded programs. In 2010, the starting salary for attorneys with two years'
experience at ICLS was $47,244; the lowest in the state for LSC funded programs. At five
years, the salary for an attorney with five years at ICLS was $53,143 while the statewide average
was $59,757. In general the stipend amount added to an attorney's salary did not exceed the
statewide average for an attorney with the same years of experience. Here are some examples
for 2010:

          •    ICLS attorney, 2.9 years experience, had gross earnings (including stipend) of
               $50,966 compared to statewide average of$54,102 for a 3 year attorney (5 .8% less)
          •    ICLS attorney, more than 30 years experience, had gross earnings (including stipend)
               of $80,334 compared to the statewide average of $84,343 for 20 or more years
               experience (4.7% less)
          •    ICLS managing attorney, 19 years experience, had gross earnings (including stipend)
               of$85,768 compared to statewide average of$86,892 (15-19 years)


1   From 2005-2010, ICLS had an average of 15 lawyers on staff and 6 managers in six offices.



                                                      Page 4 of8
Inland Counties Legal Services
Recipient No. 805230
Response to Draft Report
2011 Internal Controls Visit

       •   ICLS managing attorney, 16 years experience, had gross earnings (including stipend)
           of$76,748 compared to $86,892 statewide average (15-19 years)
      •    Executive Director, 34 years experience with 27 as CEO, had 2010 gross earnings
           (including $12,990 stipend) that were 11.8% below statewide average of $148,675 for
           20 or more years

         Recruitment of personnel is subject to state and federal requirements of equal opportunity
and non-discrimination. ICLS's hiring process is undertaken by the Human Resources Manager
which involves dissemination of in house announcements, consideration of in house applicants,
advertising positions, receiving and reviewing resumes, screening out unqualified applicants,
sending out applications to applicants who appear to be qualified, reviewing the applications for
further screening and completeness, coordinating the scheduling of first round panel interviews,
selecting interviewed applicants for second round panel interviews, then scheduling those
interviews, checking job references of suitable applicants, if any, making job offers and
negotiating hires, and then setting hire dates acceptable to the attorney applicants who wanted to
give current employers at least two weeks' notice and for others who needed time to give notices
to their landlords and to relocate to the area.

        Bringing in temporary attorney personnel who must be trained on LSC's complex
regulations, especially client eligibility and case restrictions and provided an orientation on ICLS
policies and procedures to comply with LSC regulations, e.g. 1620, 1635, etc. is time consuming
and involves considerable expenditure of program resources. It takes a considerable amount of
time to provide the requisite training and knowledge of the complex rules. Managing attorneys
who may have only one or two other staff lawyers as well as hislher own caseload and cases
inherited from the departed attorney have limited resources to provide the initial instructions and
guidance. Compounding the problem is the uncertainty of when the position will be filled or
when an injured or seriously ill employee will return.

        Temporary personnel who are not well trained in these matters place the program in
jeopardy of non-compliance with LSC regulations. The audit found that the program's internal
controls over compliance with LSC regulations (45 CFR 1610,1612 and 1617) were adequately
designed in a manner expected to ensure compliance with the LSC Act and selected LSC
regulations. In limiting personnel, the benefit versus the burden and risk was a consideration.
Another consideration was the diversity of the client popUlation and the duty to the client
community to have culturally competent personnel.

         The stipend payments and other benefits were reasonable and necessary to retain
attorneys. When attorneys left the program, the workload increased for remaining attorneys who
were reassigned cases. A typical branch office has four attorneys and one or two paralegals,
inadequate staffing to meet the demand for services. Unique challenges are created by


                                             Page 5 of8
Inland Counties Legal Services
Recipient No. 805230
Response to Draft Report
20 II Internal Controls Visit

geography, higher than average poverty levels, client diversity and lack of other full service legal
programs in both counties. ICLS thought it imprudent to set salaries at a level that could not be
sustained. When there were unspent LSC funds near the end of the year, the Board of Directors
made a decision to increase employee compensation as well as benefits, as authorized under its
Bylaws which grants the authority to manage and control all funds . The oro audit did not fmd
the violation of any rule or regulation.

         In response to declining non-LSC revenues and written information from the Legal
Services Trust Fund Program to expect 60 -70% cuts in IOLTA in 2010, and bracing for deep
cuts, an attorney and two paralegal positions were not filled.

         With IOLTA at $698,622 in 2008-09, a 70% cut would have pared the grant down to
$205,987 the next year. Fortunately the hard work of the Trust Fund Program with key
stakeholders avoided draconian cuts and resulted in a 17% drop to $569,462. The next year
IOLTA decreased 13.6% to $492,214 and then 9.2% to $446,695 the following year. In a three
year period, one-third of the IOLTA revenue disappeared. In the same time frame, the Equal
Access Fund dropped 6.4% to $609,482. These circumstances warranted fiscally conservative
budget planning. The LSC budgets were planned to have a reserve close to ten percent so funds
could be used to cover anticipated devastating cuts in the IOL T A fund or other grants.

        Other factors contributing to the build up in the LSC fund included: (a) reversion of
pension revenue to the 401(K) Retirement Forfeiture Account when employees departed prior to
full vesting;2 (b) an increase of$103,052.86 in the LSC fund in 2010 when the county finally
paid reimbursement claims following a change in an appointment of representative form by the
Social Security Administration. The LSC fund had been charged for the work because all
clients were LSC-eligible;3 (c) reasonably anticipated costs did not rise to budgeted levels
(significant increases in health insurance benefit costs were budgeted but premiums had
moderate increases) and (d) unexpected prolonged and protected medical as well as parental
leaves of absences.

        ICLS considered upgrading the salary schedule, as it had done in prior years, but after
internal discussions were held, it was considered that to do so would be imprudent.



2 An employee is eligible for the 401(K) Plan after one year of employment. Vesting is then 20% per year with full
vesting at 5 years. If an employee leaves after 3 years of service, the employer contribution has vested 60% and
40% reverts to the ICLS account.
3 Payments were delayed until the Social Security Administration issued a revised AppOintment of Representation
form which allowed advocates to waive any fees claims from claimants, removing the conflict of interest perceived
by the administrative law judges who had stopped signing the form required by the county for payment.


                                                   Page 6 of8
Inland Counties Legal Services
Recipient No. 805230
Response to Draft Report
2011 Internal Controls Visit

       The Board also increased LSC PAl Subgrants in 2007, 2008 and 2009 as pennitted by 45
CFR 1627.3(b). In 2009 and 2010, the Board also provided additional funding for equipment
needed by the PAl Subgrantees to more efficiently manage pro bono program operations. In
two years, ICLS used three LSC PAl contract attorneys to deliver legal services.

       With reference to Table 1 Total Stipends and Other Benefit Payments by Year, the
amounts for 2009 are incorrect. The employee stipends totaled $203,077.95 and the 401(k)
contribution total amount was $49,866.45 for a Total Compensation of$252,934.

ICLS RESPONSE TO RECOMMENDATION #1:

        With regard to the recommendation to develop short term and long term plans to address
staffing shortages, ICLS accepts the recommendation and will address the issue of allorney
recruitment and retention in its plans which will incorporate existing practices such as the
Attorney Roundtables, the Paralegal mentoring program of new paralegals and the Managing
Attorney peer support system in place as part of the program's culture.

II.     POLICIES AND PROCEDURES

        There was considerable work done in 2011 by the program's former long term Controller
to update the Accounting Manual. Substantial work remains to be done to include the missing
written policies and procedures by documenting existing internal control practices in place in
some of the areas and to develop new policies for the remaining areas. A new Controller, a
CPA, was recently hired and has been assigned the updating of the Accounting Manual.
Revision of some sections was completed in 2010.

ICLS RESPONSE TO RECOMMENDATION #2:

        ICLS agrees with the comments and will implement Recommendation #2.

III.   LOAN REPAYMENT AND ASSISTANCE PROGRAM (LRAP)

        The audit fmding is well taken and ICLS will address the restructuring of the LRAP to
ensure that the funds are used for their intended purpose of paying on outstanding law school
loan balances. This presents an opportunity to improve the administration of the LRAP program
in a marmer that will be designed to the extent practical to benefit the attorney participants who
are saddled with staggering high law school debt.

ICLS RESPONSE TO RECOMMENDATIONS #3 & 4:


                                            Page 70fB
Inland Counties Legal Services
Recipient No. 805230
Response to Draft Report
2011 Internal Controls Visit


       ICLS accepts Recommendations #3 and #4.



Respectfully submitted,




Irene C. Morales
Executive Director

       cc:   George S. Theios, Board President
             Barbara Purvis, Board Vice-President




                                          Page 8 of8
